CERTIFICATE OF COMPLIANCE
I hereby certify that this Petition complies with Supreme Court Rule 33.2 of
paper format, typeset of Century Schoolbook, 12 point, double spacing, pages
amounting to 38 and word limitations. This petition contains 8790 words, excluding
the parts exempted by Rule 33.1. The word processing system used to prepare the
Petition is Microsoft Word 365 which was also used to calculate the word count.

/tMWus_____

Wanda Bowling- Pro Se
PETITIONER
2024 W. 15th St. STE. F-138
Plano, Texas 75075
(770) 335-2539
wldahleimer@gmail.com

